No. _______

IN THE
SUPREME COURT OF THE UNITED STATES
___________
JIMMY KIT FIELDS,
Petitioner
v.
UNITED STATES OF AMERICA
Respondent
___________
APPENDIX
___________

INDEX TO APPENDICES
Appendix A Judgment and Opinion of Fifth Circuit
Appendix B Judgment of the United States District Court for the Northern District
of Texas

APPENDIX A

Case: 18-11499

Document: 00515434706

Page: 1

Case 5:18-cr-00052-C Document 49 Filed 06/01/20

Date Filed: 06/01/2020

Page 1 of 4 PageID 152

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 18-11499
UNITED STATES OF AMERICA,

FILED
May 8, 2020
Lyle W. Cayce
Clerk

Plaintiff – Appellee,
v.
JIMMY KIT FIELDS,
Defendant – Appellant.

Appeal from the United States District Court
for the Northern District of Texas
USDC No. 5:18-CR-52-1

Before JONES, ELROD, and HIGGINSON, Circuit Judges.
PER CURIAM:*
Appellant Jimmy Kit Fields pleaded guilty to enticement of a minor. He
was sentenced to 235 months of imprisonment and 20 years of supervised
release. As a special condition of supervised release, the sentencing judge
prohibited Fields’s use of alcohol. On appeal, Fields argues that the imposition

Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
CIR. R. 47.5.4.
*

Case: 18-11499

Document: 00515434706

Page: 2

Case 5:18-cr-00052-C Document 49 Filed 06/01/20

Date Filed: 06/01/2020

Page 2 of 4 PageID 153

No. 18-11499
of such a condition was plainly erroneous. Because Fields cannot establish
plain error, we AFFIRM.
I.
Appellant Jimmy Kit Fields was charged in a one-count indictment with
enticement of a minor in violation of 18 U.S.C. § 2422(b). Fields entered a
written plea agreement and signed a factual resume in which he admitted to
facts necessary to demonstrate his guilt. At a re-arrangement hearing before
a federal magistrate judge, Fields entered a guilty plea.
At Fields’s sentencing hearing, the district court imposed a sentence of
235 months of imprisonment and a twenty-year term of supervised release.
The district court also imposed a special condition of supervised release
requiring Fields to “abstain from the use of alcohol and all other intoxicants.”
There was no discussion of this special condition in the PSR. The district court
pronounced the special condition but provided no specific reasoning for
imposing that condition. Fields raised no objections.
Initially, Fields’s counsel filed a brief pursuant to Anders v. California,
386 U.S. 738 (1967), along with a motion to withdraw. However, we ordered
additional briefing on the issue of whether the district court plainly erred by
imposing a special condition prohibiting Fields from using alcohol or other
intoxicants. United States v. Fields, No. 18-11499 (5th Cir. July 9, 2019). This
appeal follows.
II.
The Government contends that Field’s claim is not ripe for review
because the condition of supervised released does not impact Fields until he is
released. This argument is incorrect.
When the strictures of a special condition of release “are patently
mandatory—i.e., their imposition is ‘not contingent on future events’—then a
defendant’s challenge to that condition is ripe for review on appeal.” United
2

Case: 18-11499

Document: 00515434706

Page: 3

Case 5:18-cr-00052-C Document 49 Filed 06/01/20

Date Filed: 06/01/2020

Page 3 of 4 PageID 154

No. 18-11499
States v. Magana, 837 F.3d 457, 459 (5th Cir. 2016) (quoting United States v.
Carmichael, 343 F.3d 756, 761 (5th Cir. 2003)). Here, the challenged condition
is mandatory: Fields “shall abstain from the use of alcohol and all other
intoxicants during the term of supervision.”
We hold that Fields’s claim is ripe for review and now turn to the merits
of the case.
III.
Fields argues on appeal that the special condition of supervised release
requiring him to abstain from the use of alcohol is improper. 1 As Fields did
not object when the district court orally pronounced the condition, we review
this challenge for plain error. See United States v. Alvarez, 880 F.3d 236, 239
(5th Cir. 2018). To establish plain error, Fields must show an error that is
clear or obvious and that affects his substantial rights. See id. We will exercise
our discretion to correct the error if it “seriously affects the fairness, integrity,
or public reputation of judicial proceedings.” Rosales-Mireles v. United States,
138 S. Ct. 1897, 1906 (2018).
A district court may impose any condition of supervised release it
considers appropriate as long as it is reasonably related to the sentencing
factors in 18 U.S.C. § 3553(a)(1), (a)(2)(B)–(D); does not involve a greater
deprivation of liberty than is reasonably necessary to carry out the purposes of
§ 3553(a)(2)(B)–(D); and is consistent with relevant policy statements issued
by the Sentencing Commission. 18 U.S.C. § 3583(d); United States v. Alvarez,
880 F.3d 236, 239–40 (5th Cir. 2018).

Although Fields complains generally about the condition prohibiting both alcohol
and other intoxicants, his arguments challenge only the alcohol prohibition. Thus, he has
forfeited any challenge to the portion of the condition prohibiting the use of “all other
intoxicants.” See United States v. Torres-Aguilar, 352 F.3d 934, 936 n.2 (5th Cir. 2003)
(concluding that failing to provide legal or factual analysis of an issue constitutes forfeiture
of that issue). We proceed in our review analyzing only the prohibition on alcohol.
1

3

Case: 18-11499

Document: 00515434706

Page: 4

Case 5:18-cr-00052-C Document 49 Filed 06/01/20

Date Filed: 06/01/2020

Page 4 of 4 PageID 155

No. 18-11499
Fields swore in his factual resume that he used alcohol and sleeping pills
to drug his underage victim. For that reason, Fields cannot demonstrate that
the district court made an error, yet alone a “clear and obvious” error, by
imposing a special condition prohibiting Fields from using alcohol. See United
States v. Ellis, 720 F.3d 220, 227 (5th Cir. 2013); United States v. Mason, 626
F. App’x. 473, 475 (5th Cir. 2015). We AFFIRM.

4

APPENDIX B

Case 5:18-cr-00052-C Document 38 Filed 11/09/18

Page 1 of 4 PageID 104

Case 5:18-cr-00052-C Document 38 Filed 11/09/18

Page 2 of 4 PageID 105

Case 5:18-cr-00052-C Document 38 Filed 11/09/18

Page 3 of 4 PageID 106

Case 5:18-cr-00052-C Document 38 Filed 11/09/18

Page 4 of 4 PageID 107

